case: iy-bU4Ui

Document: uubibbb484b

Hage: 1

Date Hied: uy/U8/2U2U

®ntte& States: Court of Appeals
for tfjc Jftftf) Circuit
No. 19-60401

A True Copy
Certified order issued Sep 08, 2020

Ui. Ccutix

Darex Antonio Chester

Clerk, U.S. Court of Appeals, Fifth C i

Petitioner—Appellant,
versus
Burl Cain, Commissioner, Mississippi Department of
Corrections,
Respondent—Appellee.

Appeals from the United States District Court
for the Southern District of Mississippi
USDC No. 5:18-CV-36

ORDER:
Darex Antonio Chester, Mississippi prisoner # R2129, moves for a
certificate of appealability (COA) to appeal the dismissal of his 28 U.S.C.
§ 2254 application as time barred. He asserts that he is entitled to equitable
tolling, but while he makes arguments supporting his substantive claims for
§ 2254 relief, he makes no argument challenging the time bar ruling or the
rejection of his assertion of equitable tolling. Accordingly, he has abandoned
the time bar issues. See Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir. 1999);
Yohey v. Collins, 985 F.2d 222, 225 (5th Cir. 1993).

uase: iy-bU4in

Document: uubibbb4a4b

Page: i

Date Hied: uy/ub/i'ui'u

No. 19-60401

A COA may be issued only if the applicant “has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see
Slack v. McDaniel, 529 U.S. 473, 484 (2000). When a district court has
denied a request for habeas relief on procedural grounds, the prisoner must
show “that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of
reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack, 529 U.S. at 484. Because Chester has not made
the requisite showing, his motion for a COA is DENIED.

/s/ Catharina Haynes
Catharina Haynes
United States Circuit Judge

2

Case: 19-60401

Document: 00515603621

Page: 1

Date Filed: 10/15/2020

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

October 15, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 19-60401

Darex Chester v. Burl Cain, Commissioner
USDC No. 5:18-CV-36

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk

By:
Whitney M.Jett,Deputy Clerk
504-310-7772
Mr. Darex Antonio Chester
Ms. Bridgette Grant
Mr. Arthur S. Johnston III

Case: 19-60401

Document: 00515603622

Page: 1

Date Filed: 10/15/2020

®ntteti States Court of Appeals:
for tfje Jfiftf) Circuit
No. 19-60401

Darex Antonio Chester,
Petitioner—Appellant,
versus
Burl Cain, Commissioner, Mississippi Department of
Corrections,
Respondent—Appellee.

Appeals from the United States District Court
for the Southern District of Mississippi
USDC No. 5:18-CV-36

Before Clement, Elrod, and Haynes, Circuit Judges.
Per Curiam:
A member of this panel previously denied Appellant’s Motion for a
Certificate of Appealability. The panel has considered Appellant's Motion
for Reconsideration.
IT IS ORDERED that the motion is Denied.

Case 5:18-cv-00036-DCB-FKB Document 12 Filed 01/29/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
WESTERN DIVISION

DAREX ANTONIO CHESTER

PETITIONER

V.

CAUSE ACTION NO. 5:18-CV-36-DCB-FKB

PELICIA HALL, Commissioner of MDOC

DEFENDANT

FINAL JUDGMENT
This cause having come before the Court on Petitioner Darex
Antonio Chester

("Chester")'s Petition for Writ of Habeas Corpus

pursuant to 28 U.S.C. § 2254 [Doc. 1]; on Defendant Commissioner
of Mississippi Department of Corrections
("Hall")'s Motion to Dismiss

[Doc.

6]

("MDOC"), Pelicia Hall,

the petition as untimely

pursuant to 28 U.S.C § 2244(d); on United States Magistrate Judge
F. Keith Ball's Report and Recommendation [Doc. 7]; on Chester's
Objection

[Doc.

8];

and on Hall's Response in Opposition

[Doc.

10] ;
and the Court, having adopted the Report and Recommendation
as the findings and conclusions of this Court in an Order Adopting
Report and Recommendation of even date herewith;
and having denied Chester's Motion Under 28 U.S.C. § 2254 and
his Objection to the Report and Recommendation;
and having denied Chester a Certificate of Appealability;

Case 5:18-cv-00036-DCB-FKB Document 12 Filed 01/29/19 Page 2 of 2

Accordingly,
IT IS HEREBY ORDERED AND ADJUDGED that the Complaint of Darex
Antonio Chester is DISMISSED WITH PREJUDICE.
SO ORDERED this the 29th day of January, 2019.
/s/ David Bramlette
UNITED STATES DISTRICT JUDGE

2

Case 5:18-cv-00036-DCB-FKB Document 13 Filed 01/29/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
WESTERN DIVISION

DAREX ANTONIO CHESTER
V.

PETITIONER
CAUSE ACTION NO. 5:18-CV-36-DCB-FKB

PELICIA HALL, Commissioner of MDOC

DEFENDANT

CERTIFICATE OF APPEALABILITY
A final order adverse to the applicant having been filed in
the captioned habeas corpus case, in which the detention
complain of arises out of a proceeding pursuant to 28 U.S.C. §
2254, the Court, considering the record in this case and the
requirements of 28 U.S.C. § 2253, Rule 22(b) of the Federal
Rules of Appellate Procedure, and Rule 11(a) of the Rules
Governing Section 2254 and 2254 cases in the United States
District Courts, hereby finds that:
A Certificate of Appealability ("COA") should not issue.
The applicant has failed to make a substantial showing of a
denial of a constitutional right; and, therefore, he is DENIED a
COA, sua sponte.
SO ORDERED AND ADJUDGED, this the 29th of January, 2019.
/s/ David Bramlette
UNITED STATES DISTRICT JUDGE

Case 5:18-cv-00036-DCB-FKB Document 7 Filed 12/10/18 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
WESTERN DIVISION
DAREX ANTONIO CHESTER
VS.

PETITIONER
CIVIL ACTION NO. 5:18cv36-DCB-FKB

CLIFTON KAHO, WARDEN

RESPONDENT

REPORT AND RECOMMENDATION
Darex Antonio Chester is a state prisoner who seeks a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. Respondent has filed a motion to dismiss the petition as
untimely. Chester has filed no response to the motion.
Chester was convicted in the Circuit Court of Pike County, Mississippi, of four
counts of unlawful sale of controlled substances. He was sentenced as a habitual
offender and a prior drug offender to 60 years each on Counts I and II and 40 years
each on Counts III and IV, all sentences to run concurrently, without eligibility of parole
or probation. The Mississippi Court of Appeals affirmed Chester’s convictions and
sentences on May 1, 2014. Chester v. State, 201 So. 3d 506 (Miss. Ct. App. 2016).
His petitions for rehearing and for certiorari to the Mississippi Supreme Court were
denied on October 6, 2016. He filed no petition for writ of certiorari to the United States
Supreme Court. On January 4, 2017, Chester filed with the Mississippi Supreme Court
an application for leave to seek post-conviction relief. The application was denied on
January 25, 2017. Chester’s § 2254 petition was filed with this court on or after April 12,

2018.1

1

Under the mailbox rule, a prisoner’s pro se federal habeas petition is deemed filed on the date he
delivers the petition to prison officials for mailing to the federal district court. Coleman v. Johnson, 184
F.3d 401, 196 F.3d 1259 (5th Cir. 1999). Chester’s petition was signed on April 12, 2018, and it was filestamped by this court on April 18, 2018. Thus, it was filed sometime between these dates.

Case 5:18-cv-00036-DCB-FKB Document 7 Filed 12/10/18 Page 2 of 3

The Anti-Terrorism and Effective Death Penalty Act of 1996 (AEDPA) imposes a
one-year statute of limitation for petitions for writs of habeas corpus under § 2254:

(1) A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State
court. The limitation period shall run from the latest of
(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by
State action in violation of the Constitution or laws of the United States is
removed, if the applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized
by the Supreme Court and made retroactively applicable to cases on
collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
(2) The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent judgment
or claim is pending shall not be counted toward any period of limitation
under this subsection.

28 U.S.C. § 2244(d). Because Chester did not petition the United States Supreme
Court for a writ of certiorari, his judgment became final when his 90-day period for doing
so expired, i.e., on January 4, 2017 (90 days after denial of the petition for certiorari to
the state supreme court). See Roberts v. Cockrell, 319 F.3d 690, 693 (5th Cir. 2003)
(“[A] state prisoner’s conviction becomes final for purposes of § 2244 ninety days after
the judgment is entered, when the time to file a petition for writ of certiorari with the
2

Case 5:18-cv-00036-DCB-FKB Document 7 Filed 12/10/18 Page 3 ot 3

Supreme Court has expired.”) Chester had one year from that date, or until January 4
2018, in which to file for federal habeas relief, subject to tolling under § 2244(d)(2) for
any period during which a properly-filed motion for post-conviction relief was pending in
the state court. Under § 2244(d)(2), Chester is entitled to 22 days of statutory tolling for
the time period during which his state court post-conviction action was pending (January
4, 2017, through January 25, 2017). Thus, his one year expired on January 26, 2018
(one year from January 4, 2017, plus 22 days). Chester has not shown that he is
entitled to any further tolling or that any other exception applies. Therefore, his federal
petition, filed on or after April 12, 2018, is untimely.
Accordingly, it is recommended that the motion to dismiss be granted and the
petition be dismissed with prejudice. The parties are hereby notified that failure to file
written objections to the proposed findings, conclusions, and recommendation
contained within this report and recommendation within fourteen (14) days after being
served with a copy shall bar that party, except upon grounds of plain error, from
attacking on appeal the proposed factual findings and legal conclusions accepted by the
district court. 28 U.S.C. § 636; Fed. R. Civ. P. 72(b); Douglass v. United Services
Automobile Ass’n, 79 F.3d 1415, 1428-29 (5th Cir. 1996).
Respectfully submitted, this the 10th day of December, 2018.
s/ F. Keith Ball
United States Magistrate Judge

3

Additional material
from this filing is
available in the
Clerk's Office.

